APPENDIX

ia
APPENDIX
Table of Contents
Appendix A.................................................................1a
ORDER DENYING RECONSIDERATION
Maine Supreme Judicial Court (June 25, 2019)
Appendix B………………………………………………2a
OPINION
Maine Supreme Judicial Court (June 4, 2019)
Appendix C…………………..………………………...25a
ORDER ON JUDGMENT
Maine Superior Court (March 5, 2018)
Appendix D……………………………..……..……….29a
Motion for Reconsideration (June 17, 2019)

1a
Appendix A
MAINE SUPREME JUDICIAL COURT
Sitting as the Law Court
Docket No. Cum-18-252
Decision No. 2019 ME 87
Tucker J. Cianchette et al.
v.

ORDER DENYING
MOTION TO
RECONSIDER

Peggy A. Cianchette et al.
Eric L. Cianchette, Peggy A. Cianchette, PET,
LLC, and Cianchette Family, LLC, have filed a
motion to reconsider the Court’s decision dated June
4, 2019. The motion has been reviewed by the panel
that decided the original appeal.
The motion to reconsider is DENIED.
Dated: June 25, 2019

For the Court,
/s/______________________
Matthew Pollack
Clerk of the Law Court
Pursuant to M.R. App. P.
12A(b)(4)

2a
Appendix B
Reporter of Decisions
MAINE SUPREME JUDICIAL COURT
Decision:
2019 ME 87
Docket:
Cum-18-252
Argued:
April 10, 2019
Decided:
June 4, 2019
Panel:
MEAD, GORMAN, JABAR, HJELM,
and HUMPHREY, JJ.
TUCKER J. CIANCHETTE et al.
v.
PEGGY A. CIANCHETTE et al.
JABAR, J.
[¶1] Peggy A. Cianchette, Eric L. Cianchette,
PET, LLC, and Cianchette Family, LLC (collectively,
Peggy and Eric) appeal from a judgment of the
Superior Court (Cumberland County, Warren, J.)
denying their motions for judgment as a matter of
law and a new trial following a jury verdict in favor
of Tucker J. Cianchette on his claims for breach of
contract, breach of fiduciary duty, and fraudulent
misrepresentation. They argue that the court erred
by (1) allowing Tucker to proceed on a claim of
fraudulent misrepresentation based upon allegations
that, at the time the contract was executed, Peggy
and Eric did not intend to perform their obligations
under the contract; (2) failing to give a requested
* Saufley, C.J., sat at oral argument but did not participate
in the development of the opinion.

3a
jury instruction; and (3) allowing Tucker to proceed
on a claim for breach of fiduciary duty when the
parties’ relationship was governed by a limitedliability-company operating agreement. We affirm
the judgment.
I. BACKGROUND
A. Facts
[¶2] The following facts, including all justifiable
inferences, are drawn from the trial record as viewed
in the light most favorable to the jury’s verdict. See
Hansen v. Sunday River Skiway Corp., 1999 ME 45,
¶ 5, 726 A.2d 220.
[¶3] In 2012, the owner of Casco Bay Ford (the
dealership)—a Ford vehicle dealership in Yarmouth,
Maine—hired Tucker as general manager. A year
later, the owner approached Tucker and offered to
sell him the dealership and the real estate upon
which it sits. Because Tucker lacked the financial
resources to complete the purchase on his own, he
brought the opportunity to Peggy and Eric
Cianchette, his step-mother and father. Although the
owner of the dealership was aware of Peggy and
Eric’s prospective roles in financing the purchase, he
made it a condition of the sale that Tucker be a partowner of the dealership because he “would have
never sold the business to someone that [he] didn’t
know and was not in the car business.”
[¶4] Together, Peggy, Eric, and Tucker formed
PET, LLC (PET), to purchase, own, and operate the
dealership. Peggy and Tucker are each 33% owners
of PET, while Eric owns the remaining 34%. Peggy
was named manager of PET and remains in that role
to date. Peggy and Eric formed a separate company,

4a
Cianchette Family, LLC (Cianchette Family), to own
the real estate where the dealership is located.
[¶5] Because the dealership is a certified Ford
Motor Company (Ford) dealership, Eric, Tucker, and
Peggy each had to receive certain approvals from
Ford. Eric and Tucker were required to personally
guarantee a “floor plan” line of credit to finance the
dealership’s vehicle inventory, which they sought
from Ford Motor Credit Company, LLC (Ford
Credit). Tucker was approved as “dealer principal” or
“F(ii)”—a person with proven capacity in the vehicle
dealership business who is approved to be the face of
the dealership and communicate with Ford.1
Additionally, Ford approved a lease agreement
between PET and Cianchette Family for $23,000 per
month.
[¶6] In December 2013, PET and Cianchette
Family completed their respective purchases of the
dealership and the real estate. Almost immediately
following the sale, Peggy informed PET that the rent
would be nearly tripled to $65,000 and would be paid
to a third party, Top of Exchange, LLC—a company
owned by Eric and a trust established for the benefit
of Peggy and Eric’s children, excluding Tucker.
[¶7] The next year, Peggy, Eric, and Tucker began
discussions about Tucker purchasing Peggy and
Eric’s shares of PET, leaving him as the sole owner
of the dealership. At Eric’s urging, Tucker obtained a
loan commitment letter from Androscoggin Savings
Bank (Androscoggin). When Tucker presented the

Both Tucker and Peggy applied for F(ii) status, but only
Tucker was approved.
1

5a
commitment letter to Eric, however, Peggy and Eric
rescinded the offer to sell their shares. After Tucker
pushed Peggy and Eric for a reason why they had
had him seek a commitment letter for no reason, he
was told “I guess we just wanted to see you fail.”
[¶8]
In
2015,
Peggy
directed
Michael
Cianchette—her son and Cianchette Family’s
attorney—to move $600,000 out of PET’s operating
account with Ford Credit and into a new account at
Merrill Lynch that was opened by forging Tucker’s
signature. Because the Merrill Lynch account earned
significantly less interest, and because Tucker’s
compensation was based on all income earned by
PET, including interest, his compensation as general
manager was reduced. Additionally, Peggy, without
any vote by PET’s shareholders, made a $375,000
interest-free loan from PET to Cianchette Family for
use on a real estate project in Florida. Tucker had no
interest in or knowledge of the real estate project. As
of the trial date, the loan had not been repaid.
[¶9] That same year, Peggy and Michael
approached Tucker at the dealership and presented
him with a check for some of his share of PET’s
profits and an amendment to PET’s operating
agreement that they wanted him to agree to. The
amendment would have converted Tucker’s shares in
PET into a new lower class of stock that would have
allowed Peggy and Eric to take all profits. The
amendment also included a waiver of claims for any
and all violations of PET’s operating agreement that
may have occurred up to that point. Tucker refused
to sign the amendment.
[¶10] In September 2015, Peggy, Eric, and Tucker
again began discussing a sale of Peggy and Eric’s

6a
interests in PET to Tucker. When Tucker agreed,
Peggy and Eric presented him with a purchase and
sale agreement that had been drafted by Michael.
However, as a condition of the agreement, Tucker
was required to first sign the amendment to PET’s
operating agreement that he had previously refused
to sign. Once again, Tucker refused to the sign the
amendment and, by extension, the purchase and sale
agreement.
[¶11] Two months later, Peggy and Eric
presented Tucker with two separate purchase and
sale agreements, one for their ownership interests in
PET and one for the real estate, each agreement
contingent on the successful closing of the other.
Peggy and Eric required him to pay a $150,000
nonrefundable deposit to enter into the agreements.
Eric later explained that he required the deposit
because he wanted it to make it “hurt” if Tucker
failed to close the deal.
[¶12] Tucker paid the deposit and signed the
agreements with Peggy and Eric. The following
provisions were included within the membership
agreement and are pertinent to this appeal:
2.5 Closing Date and Place. The consummation
of the transactions referred to in this
Agreement (the “Closing”) shall take place on
January 31, 2016 (the “Closing Date”). . . .
Notwithstanding the foregoing . . . Buyer shall
have the right to extend the Closing Date for
not more than thirty (30) days . . . provided the
purchase price shall increase by $1,000 for each

7a
calendar day the Closing does not occur after
January 31, 2016.
....
4.5 Proof of Ability to Close. On or before
November 30, 2015, Buyer shall provide Sellers
with a pro-forma closing statement showing
expected sources of funds sufficient to complete
the transactions described herein. . . . If
Sellers, in their sole discretion, are not
satisfied that the Buyer has sufficient funding
to close on this transaction, the Sellers may
terminate this contract without penalty by
providing Buyer with written notice of
termination on or before December 15, 2015. . .
.
....
6.2 Seller’s obligations under this Agreement
are contingent upon buyer having obtained
from Ford Credit the release of any personal
guarantees or other performance guarantees
given by either of Sellers in regard to Casco
Bay Ford’s floor plan financing facilities and
any other personal guarantees which either
Seller has given in regard to PET or Casco Bay
Ford to any person, including, but not limited
to
vendors,
Ford
Motor
Company,
governmental entities, and other credit
providers. . . .
[¶13] To finance his purchase, Tucker secured a
loan commitment from Androscoggin and expected
the approval of a loan guarantee from the Small
Business Association. Tucker also received the

8a
approval of Ford to move forward with his purchase
and the approval of Ford Credit to secure a “floor
plan” in his name alone. Tucker provided
documentation of these approvals to Peggy and Eric.
To his surprise, Peggy accused him of being
dishonest in his disclosures and threatened to
terminate the agreements unless Tucker signed a
new contingency agreement that required him to
provide new disclosures and that extended Peggy
and Eric’s termination right to January 15, 2016.
Tucker signed the new contingency agreement,
provided updated disclosures, and again received the
necessary approvals to move forward with his
purchase.
[¶14] Pursuant to section 6.2 of the membership
agreement, Tucker was required to obtain the
release of Peggy and Eric’s personal guarantees
related to the dealership. To this end, Tucker sought
and received a draft letter from Ford Credit in
December 2015 that purported to release Eric from
any future liability on the dealership’s floor plan.
There is no dispute that the letter did not release
any past liabilities already accrued. At the time,
however, Tucker believed that the letter was
sufficient to satisfy the requirements of section 6.2
and, despite providing the letter to Peggy and Eric,
received no indication that Peggy and Eric believed
that the release was insufficient. A representative of
Ford Credit testified that, had Peggy and Eric made
Ford Credit aware that the draft letter was
insufficient, a complete release of liabilities could
have been provided on an expedited basis.
[¶15] In January 2016, as the closing date drew
near, Peggy and Eric threatened to terminate the

9a
sale agreements unless Tucker executed a new
amendment that terminated his right to extend the
closing date and added several other new
requirements to successfully close the sale. When
Tucker refused to sign the amendment, Peggy and
Eric purported to terminate the sale agreements in
accordance with their section 4.5 termination right.
On January 29, 2016, Tucker attended the scheduled
closing.2 Peggy and Eric had already traveled to
Florida and did not appear.
[¶16] After the failed closing, Peggy and Eric
placed Tucker on administrative leave from his
position as general manager of the dealership. When
Peggy and Eric later became aware that Ford could
rescind the dealership’s certification because there
was no longer a dealer principal on site, they
requested that Tucker return as general manager.
Tucker agreed, provided that they worked towards a
new closing date in April 2016. In March 2016, the
parties initially agreed to the new closing date, but
shortly after Tucker returned as general manager,
Peggy and Eric informed Tucker that they would not
be selling the dealership, that they had found a new
general manager who had been approved as dealer
principal, and that he was fired.
B. Procedure
[¶17] Tucker brought suit in June 2016, alleging
(1) breach of the membership agreement; (2) breach
of the subsequent agreement in March 2016; (3)
fraudulent misrepresentation; (4) fraud in the sale of

The closing date was moved up due to the original
scheduled date, which fell on a weekend.
2

10a
a security; (5) breach of fiduciary duty; and (6)
breach of PET’s operating agreement.3 Peggy and
Eric brought several counterclaims, and the parties
each moved for partial summary judgment. The
court granted summary in favor of Tucker on all of
Peggy and Eric’s counterclaims except dissociation,4
granted Peggy and Eric summary judgment on
Tucker’s securities fraud claim, and denied summary
judgment as to the remainder of Tucker’s claims. See
Cianchette v. Cianchette, No. CV-16-249, 2018 Me.
Super. LEXIS 13 (Jan. 17, 2018).
[¶18] Following a two-week trial, the jury
returned a verdict in favor of Tucker on all claims
and awarded him $3,100,000 for breach of the
membership agreement, $213,000 for fraudulent
misrepresentation, $23,000 for breach of PET’s
operating agreement, $550,000 against Peggy for
breach of fiduciary duty, and $1,500,000 in punitive

Tucker and several investors formed CBF Associates,
LLC, to complete the purchase of the real estate that Casco Bay
Ford sits upon. Because successful closing of the real estate
agreement was contingent on the closing of the membership
agreement, that sale also did not close. As part of this action,
CBF asserted its own claim for breach of the real estate
agreement and prevailed at trial.
3

4Pursuant

to the Maine Limited Liability Company Act, a
member of an LLC may be dissociated—i.e., removed as a
member of the company—by judicial expulsion in certain
enumerated circumstances. 31 M.R.S. § 1582(5) (2018). Here,
Peggy and Eric sought the judicial expulsion of Tucker as a
member of PET. Following the trial, however, the court granted
judgment in favor of Tucker on the dissociation claim, leaving
him as a member of PET. Peggy and Eric do not challenge that
judgment on appeal.

11a
damages against Eric.5 Peggy and Eric filed a motion
for a new trial, see M.R. Civ. P. 59, and a renewed
motion for judgment as a matter of law, see M.R. Civ.
P. 50(b), asking the court to set aside the jury
verdict, both of which were denied by the court. This
timely appeal followed. See M.R. App. P. 2B(c)(2).
II. DISCUSSION
A. Fraudulent Misrepresentation
[¶19] Peggy and Eric first argue that the court
erred by denying their post-trial motion for judgment
as a matter of law and by not setting aside the jury’s
verdict
on
Tucker’s
claim
of
fraudulent
misrepresentation. “We review the denial of a motion
for judgment as a matter of law de novo to determine
if any reasonable view of the evidence and those
inferences that are justifiably drawn from that
evidence supports the jury verdict.” Russell v.
ExpressJet Airlines, Inc., 2011 ME 123, ¶ 10, 32 A.3d
1030 (quotation marks omitted).
[¶20] In order to prevail on a claim for fraudulent
misrepresentation, Tucker is required to prove five
elements:
(1) . . . a false representation (2) of a material
fact (3) with knowledge of its falsity or in
Prior to the return of the jury’s verdict, it was agreed that
Tucker could not recover for both fraudulent misrepresentation
and breach of the membership agreement, nor for both breach
of fiduciary duty and breach of PET’s operating agreement,
because the respective claims were predicated on the same or
similar conduct. Accordingly, the court reduced Tucker’s award
for fraudulent misrepresentation by $213,000 and his award for
breach of PET’s operating agreement by $23,000 to prevent
double recovery.
5

12a
reckless disregard of whether it is true or false
(4) for the purpose of inducing another to act
or to refrain from acting in reliance on it, and
(5) the other person justifiably relies on the
representation as true and acts upon it to the
damage of the plaintiff.

Drilling & Blasting Rock Specialists, Inc. v.
Rheaume, 2016 ME 131, ¶ 17, 147 A.3d 824
(quotation marks omitted). At issue here are the first
two elements—a false representation of a material
fact. Peggy and Eric argue that an intention not to
perform a contract, even when such an intention
existed at the time of the execution of the contract,
cannot
support
an
action
for
fraudulent
misrepresentation because it is not a false
representation of a material fact. To support this,
they rely, in large part, on Shine v. Dodge, 130 Me.
440, 443, 157 A. 318, 319 (1931). We disagree.
[¶21] In Shine, a disgruntled purchaser of stocks
sued the seller. Id. at 441-42, 157 A. at 318-19. The
seller argued that Shine could not prevail because
Shine failed to “aver[] a misrepresentation by [the
seller] of a material fact, but rather set[] forth
expressions of opinion by [the seller] as to the merits
of the stock, or the breach of a promise by [the seller]
to guarantee dividends on it in case of a default.” Id.
at 443, 157 A. at 319.
[¶22] The seller’s argument reflected the
traditional rule by which liability for fraudulent
misrepresentation, often termed “deceit,” was judged.
Id., 157 A. at 319. In short, the viability of the action
depended on whether the seller’s statement was of
fact or opinion. Id. at 446, 157 A. at 320. When the
false statement was an expression of opinion, there

13a
was no liability. Id. at 443, 157 A. at 319. Before
explaining that the purchaser had failed to prove her
case for fraudulent misrepresentation because “a
false statement as to the value of property is held to
be merely an expression of opinion,” we stated that it
was “well settled in this state that the breach of a
promise to do something in the future will not
support an action of deceit, even though there may
have been a preconceived intention not to perform.”
Id., 157 A. at 319. Since that time, however, we have
stepped away from that “well-settled” notion.
[¶23] More recently, the Restatement (Second) of
Torts has promulgated a broader rule, which states:
One
who
fraudulently
makes
a
misrepresentation of fact, opinion, intention or
law for the purpose of inducing another to act
or to refrain from action in reliance upon it, is
subject to liability to the other in deceit for
pecuniary loss caused to him by his justifiable
reliance upon the misrepresentation.
Restatement (Second) of Torts § 525 (Am. Law Inst.
1977). Although our adoption of the Restatement’s
rule has not been explicit, we have cited it with
approval on several occasions. See Boivin v. Jones &
Vining, Inc., 578 A.2d 187, 188-89 (Me. 1990); Arbour
v. Hazelton, 534 A.2d 1303, 1305 (Me. 1987);
Letellier v. Small, 400 A.2d 371, 376 n.3 (Me. 1979).
We take this opportunity to explicitly adopt the
Restatement’s
formulation
of
fraudulent
misrepresentation and overrule the contrary rule
stated in Shine.
[¶24] Pursuant to the Restatement, “[a]
representation of the maker’s own intention to do or

14a
not to do a particular thing is fraudulent if he does
not have that intention.” Restatement (Second) of
Torts § 530(1) (Am. Law Inst. 1977). This is true
regardless of whether there is an express statement
of intent because “a promise necessarily carries with
it the implied assertion of an intention to perform.”
Id. § 530(1) cmt. c. When, as the jury found, Peggy
and Eric entered into the membership agreement
with no intention of actually performing that
agreement, they made a false representation.
[¶25] Likewise, Peggy and Eric’s false
representation of their intent to perform their
obligations under the membership agreement is not
an expressed opinion, it is a fact and a fact that was
material to the formation of the agreement. As
acknowledged in the comments to the Restatement,
“[s]trictly speaking, ‘fact’ includes not only the
existence of a tangible thing or the happening of a
particular event or the relationship between
particular persons or things, but also the state of
mind, such as the entertaining of an intention.” Id. §
525 cmt. d (emphasis added); see also id. § 530(1)
cmt. a (“The state of a man’s mind is as much a fact
as the state of his digestion.”).66 Further, because an
For clarity, we note that neither this opinion nor the
Restatement provides that every false representation of an
opinion is actionable as fraudulent misrepresentation. Rather,
although the Restatement acknowledges that the “holding of an
opinion” can be considered a fact much in the same way an
intention can be—i.e., the fact of a declarant’s state of mind—it
finds it “convenient to distinguish between misrepresentations
of opinion and misrepresentations of all other facts, including
intention” because there is “a marked difference between what
constitutes justifiable reliance upon statements of the maker’s
opinion and what constitutes justifiable reliance upon other
6

15a
intent to never perform the contract at the time of its
execution is something that “a reasonable man would
attach importance to . . . in determining his choice of
action in the transaction in question,” id. § 538(2)(a)
(Am. Law Inst. 1977)—i.e., whether to enter into
that contract—the existence of that intent is
material. See Mariello v. Giguere, 667 A.2d 588, 59091 (Me. 1995) (explaining that a fact was material
when “a reasonable person would attach
significance” to that fact).
[¶26] This is not to suggest, however, that every
false representation of intent is actionable as a tort.
The statement of the rule itself also highlights its
limiting principle—the intent to not perform must be
present at the time the parties are entering into the
contract.7 See Restatement (Second) of Torts § 530(1)
cmt. b (“If the statement is honestly made and the
intention in fact exists, one who acts in justifiable
reliance upon it cannot maintain an action of deceit
representations.” Restatement (Second) of Torts § 525 cmt. d
(Am. Law Inst. 1977). It is only in this sense that the
Restatement separates out and acknowledges that a
misrepresentation of opinion may be actionable in the
appropriate circumstances. See Restatement (Second) of Torts
§§ 538A, 539, 542-43 (Am. Law Inst. 1977) (defining “opinion”
and stating the rules as to when an opinion may be justifiably
relied upon).
Peggy and Eric argue that the court erred by not explicitly
instructing the jury that the intent to not perform must have
existed at the time of contracting. However, they did not make
this argument to the trial court, and therefore this argument
was not preserved for appeal. See Clewley v. Whitney, 2002 ME
61, ¶ 9, 794 A.2d 87. When read as a whole, there is no obvious
error in the court’s instructions. See Morey v. Stratton, 2000
ME 147, ¶ 10, 756 A.2d 496.
7

16a
if the maker for any reason changes his mind and
fails or refuses to carry his expressed intention into
effect.”). Where the intent not to perform arises at
some point after the contract is entered into, then
the appropriate remedy lies solely in an action for
breach of contract.8
[¶27] In this case, a reasonable view of the
evidence and all justifiable inferences supports the
jury’s finding that Peggy and Eric entered into the
membership agreement with the intent of never
performing their obligations under that contract. The
evidence also supports a finding that Tucker
justifiably relied upon that false representation to
his detriment. Accordingly, the court did not err by
denying Peggy and Eric’s motion for judgment as a
matter of law.

Although Peggy and Eric argue that a tort claim and a
breach of contract claim cannot coexist based upon the same or
similar conduct, the Restatement makes it clear that the
existence of a tort claim for fraudulent misrepresentation is a
separate cause of action that exists “whether or not the promise
is enforceable as a contract. . . . [I]t is immaterial to the tort
liability that the damages recoverable are identical with, or
substantially the same as, those which could have been
recovered in an action of contract if the promise were
enforceable.” Restatement (Second) of Torts § 530(1) cmt. c.
Stated another way, one “who fraudulently induces another to
contract and then also refuses to perform the contract commits
two separate wrongs, so that the same transaction gives rise to
distinct claims that may be pursued to satisfaction
consecutively.” deNourie & Yost Homes, LLC v. Frost, 893
N.W.2d 669, 682 (Neb. 2017) (quotation marks omitted). Any
duplication in damages awarded for the contract and tort
claims can be resolved by post-judgment judicial action, as the
court took here.
8

17a
B. Jury Instruction on the Ford Credit Release
[¶28] Next, Peggy and Eric argue that the court
erred by denying their motion for a new trial based
upon the court’s refusal to give a jury instruction
specifically stating that the draft letter from Ford
Credit releasing Eric from future liability—given to
Peggy and Eric in December, a month prior to the
January closing date—was insufficient, as a matter
of law, to meet Tucker’s obligation under section 6.2
of the membership contract. We review the denial of
a motion for a new trial for an abuse of discretion.
See Seabury-Peterson v. Jhamb, 2011 ME 35, ¶ 14,
15 A.3d 746.
[¶29] “[A] party can demonstrate entitlement to a
requested instruction only where the instruction was
requested and not given by the court and it: (1)
states the law correctly; (2) is generated by the
evidence in the case; (3) is not misleading or
confusing; and (4) is not otherwise sufficiently
covered in the court’s instructions.” Clewley v.
Whitney, 2002 ME 61, ¶ 8, 794 A.2d 87. Additionally,
the court’s “refusal to give the requested instruction
must have been prejudicial to the requesting party.”

Id.

[¶30] In regard to section 6.2 of the membership
agreement, the court instructed the jury as follows:
[S]ection 6.2 of the dealership contract
included a condition that Tucker obtain
releases of Eric and Peggy from any personal
[guarantees] given to Ford Credit or any
personal [guarantees] given to any other
vendors, including Ford Motor Company. And
that provision required releases for Eric and

18a
Peggy from any potential—potential personal
guarantee liability with respect to the time
period prior to closing as well as from any
potential personal guarantee liability with
respect to the time period after the closing.
That condition was a requirement for closing
but did not allow Eric and Peggy to terminate
the dealership contract at [any time] prior to
closing.
This instruction accurately informed the jury that
Tucker was required to obtain a release for “any
potential . . . personal guarantee liability” incurred
by Peggy and Eric in relation to the dealership,
including that incurred during “the time period prior
to closing.” The court’s instruction also informed the
jury that section 6.2 did not provide a mechanism by
which Peggy and Eric could prematurely terminate
the membership agreement. Therefore, taken as a
whole, the court’s instruction provided the jury with
the appropriate interpretation of section 6.2 and
what it required of Tucker prior to closing. See id.
Further instruction as to adequacy of the specific
draft release letter would serve only to “clarify a
matter [already] addressed by the court.” Id. ¶ 11.
[¶31] Regardless, even if it was error for the court
not to specifically inform the jury that the draft
letter was insufficient to meet Tucker’s obligation
under section 6.2, Peggy and Eric have not shown
prejudice because that section of the membership
agreement only required a complete release of Peggy
and Eric’s personal guarantees prior to closing.
Peggy and Eric, however, purported to prematurely
terminate the membership agreement, relying upon
section 4.5 of the membership agreement, which only

19a
allowed for their unilateral termination based upon a
subjective good faith belief that Tucker lacked
adequate funding to close. Moreover, Ford Credit’s
representative testified that, had he been informed of
the insufficiency of the draft release, a complete
release could have been provided on an expedited
basis. That testimony, combined with Tucker’s
ability to extend the closing date by another thirty
days, makes it such that the jury was entitled to find
that Tucker had not failed to meet his section 6.2
requirement at the time that Peggy and Eric
breached the contract, regardless of whether the jury
found that the breach occurred when Peggy and Eric
purported to prematurely terminate the agreement
or when they failed to attend the scheduled closing.
[¶32] Therefore, it was not an abuse of discretion
for the court to deny Peggy and Eric’s motion for a
new trial based upon the court’s refusal to instruct
the jury as to the insufficiency of the Ford Credit
draft release letter.
C. Breach of Fiduciary Duty
[¶33] Finally, Peggy argues that the court erred
by denying her motion for judgment as a matter of
law because Tucker could not have proceeded against
her on a claim of breach of fiduciary duty arising
from her role as PET’s manager while also
maintaining a claim for breach of PET’s operating
agreement. She argues that Maine’s Limited
Liability Company Act, 31 M.R.S. §§ 1501-1693
(2018), transforms any breach of fiduciary duty into
a breach of PET’s operating agreement that sounds
solely in contract law. This presents a question of
statutory interpretation that we consider de novo.

20a

See Caruso v. Jackson Lab., 2014 ME 101, ¶ 12, 98
A.3d 221.
[¶34] Maine’s Limited Liability Company Act
seeks “to give maximum effect to the principles of
freedom of contract and to the enforceability of
limited liability company agreements.” 31 M.R.S. §
1507(1). To achieve this goal, the Act provides that
the operating agreement of an LLC “governs
relations among the members as members and
between the members and the limited liability
company.” 31 M.R.S. § 1521(1). The default rules
contained within the Act work to “backstop the
agreement to the extent the agreement does not
address a matter.” Comm. Amend. A to L.D. 1580,
No. H-819, Subchapter Cmts., Subchapter 2, at 69
(124th Legis. 2009). If both the LLC’s operating
agreement and the Act are silent on an issue,
common law controls. See 31 M.R.S. § 1507(2).
[¶35] The Act expressly imposes fiduciary duties
upon the manager of an LLC:
1. Good faith; diligence; care; skill. Persons
shall discharge their duties under this chapter
in good faith with a view to the interests of the
limited liability company and of the members
and with the degree of diligence, care and skill
that ordinarily prudent persons would exercise
under similar circumstances in like positions. .
....
3. Fiduciary duty. Subject to the terms of
section 1521, subsection 3, paragraph A, a
member not involved in the management of a
limited liability company does not have a
fiduciary duty to the limited liability company,

21a
or to any other member, or to another person
that is a party to or is otherwise bound by a
limited liability company agreement, solely by
reason of being a member.
31 M.R.S. § 1559(1), (3). The operating agreement of
an LLC may then limit, expand, or eliminate those
duties:
3. Expansion, restriction or elimination of
duties. Except as provided in section 1611, a
member’s or other person’s duties may be
expanded, restricted or eliminated as provided
in this subsection.
A. To the extent that, at law or in equity, a
member or other person has duties, including
fiduciary duties, to the limited liability
company or to another member or to another
person that is a party to or is otherwise bound
by a limited liability company agreement, the
member’s or other person’s duties may be
expanded or restricted or eliminated by
provisions in a written limited liability
company agreement; except that the implied
contractual covenant of good faith and fair
dealing may not be eliminated.
B. A written limited liability company
agreement may provide for the limitation or
elimination of any liabilities for breach of
contract and breach of duties, including
fiduciary duties, of a member or other person
to a limited liability company or to another
member or to another person that is a party to

22a
or is otherwise bound by a limited liability
company agreement.
31 M.R.S § 1521(3)(A), (B).
[¶36] The operating agreement of PET does not
include any provisions that would create, modify, or
eliminate the fiduciary duties of its manager. The
closest provision speaks only to the liability of PET’s
manager, not the existence, limitation, or elimination
of fiduciary duties:
5.4.1. The Managers shall not be liable,
responsible, or accountable in damages or
otherwise to the Company or to any Member
for any action taken or any failure to act on
behalf of the Company within the scope of the
authority conferred on the Managers by this
Agreement or by law, unless the action was
taken or the omission was made fraudulently
or in bad faith or unless the action or omission
constituted gross negligence.

Compare 31 M.R.S. § 1521(3)(A) (allowing duties
to “be expanded or restricted or eliminated”) with 31
M.R.S. § 1521(3)(B) (allowing for “the limitation or
elimination of any liabilities for breach of contract
and breach of duties, including fiduciary duties”
(emphasis added)). In the absence of provisions
within the agreement addressing fiduciary duties,
the default rules of the Act control, see 31 M.R.S. §
1559(1), and are not contractual in nature, see Perry
v. Dean, 2017 ME 35, ¶ 14 n.5, 156 A.3d 742 (“[A]
claim for breach of fiduciary duty is a tort claim.”).
See Lee v. Pincus, No. 8458-CB, 2014 Del. Ch. LEXIS
229, at *25 (Del. Ch. Nov. 14, 2014) (explaining that
a contract “preempt[s] the default fiduciary

23a
relationship” only when it “expressly address[es]
[the] issue, and thereby create[s] a right that is
solely a creature of contract” (quotation marks
omitted)).
[¶37] In this case, Tucker alleged that Peggy
breached her fiduciary duty as manager of PET by
failing to act in good faith toward the interests of
PET and its owners by tripling the rent paid,
transferring money into an account with a lower
interest rate to punish Tucker, making a no-interest
loan without approval, and attempting to shield
herself from liability for these actions by requesting
Tucker waive her breaches of the operating
agreement. Although these allegations relate to the
same or similar conduct as those forming Tucker’s
claim for breach of PET’s operating agreement,
Peggy’s failure to discharge her duties as manager in
good faith provides Tucker with an independent
cause of action against Peggy. See, e.g., PT China
LLC v. PT Korea LLC, No. 4456-VCN, 2010 Del. Ch.
LEXIS 38, at *26, *32 (Del. Ch. Feb. 26, 2010)
(stating that where “the fiduciary duty claims arise
independently of the duties imposed contractually”
by an operating agreement, the fiduciary duty claim
may survive “even if both are related to the same or
similar conduct”).
[¶38] Accordingly, the court did not err when it
denied Peggy’s post-judgment motion for judgment
as a matter of law based upon her argument that
Tucker could not proceed on a claim for both breach

24a
of fiduciary duty and breach of PET’s operating
agreement.9
The entry is:
Judgment affirmed.
Catherine R. Connors, Esq. (orally), Pierce
Atwood LLP, Portland, and Lee H. Bals, Esq., Jennie
L. Clegg, Esq., and Katherine M. Krakowka, Esq.,
Marcus Clegg, Portland, for appellants Eric L.
Cianchette, Peggy A. Cianchette, PET, LLC, and
Cianchette Family, LLC
Jennifer A. Archer, Esq. (orally), Timothy H.
Norton, Esq., and Emily G. Atkins, Esq., Kelly
Remmel & Zimmerman, Portland, for appellees
Tucker J. Cianchette and CBF Associates, LLC
Benjamin P. Gilman, Esq., Maine Chamber of
Commerce, for amici curiae of Maine State Chamber
of Commerce and Associated General Contractors of
Maine, Inc.

To the extent that these claims do have an overlapping
factual basis supporting them, the court properly remedied the
issue by reducing Tucker’s damages as to his claim against
Peggy for breach of PET’s operating agreement.
9

25a
Appendix C
STATE OF MAINE

SUPERIOR COURT

CUMBERLAND, ss

CIVIL ACTION
DOCKET NO. CV-16-249

TUCKER CIANCHETTE, et al.,
Plaintiffs
v.

ORDER

ERIC CIANCHETTE, et al.,
Defendants
Pursuant to the written jury verdict in this case,
judgment shall be entered as set forth below. As the
court has ruled, plaintiff Tucker Cianchette was
entitled to seek expectation damages on his claim of
fraudulent misrepresentation. Restatement 2d of
Torts §549(3).1 The parties agreed that if that ruling
is correct and if Tucker prevailed on the fraudulent
misrepresentation claim, his expectation damages
would be the same as any damages that he was
awarded for breach of contract. This was set forth in
the jury instructions. Tucker is not entitled to
recover those damages twice. Accordingly, judgment

1

This was discussed on the record in connection with
defendants' claim that Tucker was required to elect his
remedies prior to a jury verdict. At that time the court
mistakenly cited § 249 of the Restatement instead of §549 of the
Restatement.

26a
is entered below for a single amount on both Counts
I and VII.2
Although the jury verdict found $213,000 was
owed to Tucker for reliance damages, the only
evidence offered as to reliance damages related to
costs that Tucker would have incurred if the contract
had closed (nonrefundable deposit that was part of
the purchase price, fees paid to banks in connection
with financing).
Since those costs were to be
deducted from any award for contract or expectation
damages under the jury instructions, the court
understands that plaintiffs agree that if contract
damages were awarded, Tucker is not also entitled to
his reliance damages.
Accordingly, no reliance
damages are included in the judgment.
The court understands that plaintiffs agree
that any damages awarded to Tucker on both his
claim for breach of the LLC agreement and his claim
for breach of the duty of good faith and fair dealing
would be duplicative. Accordingly, the judgment
below reflects that the $23,000 awarded against
Peggy Cianchette jointly and severally on count IX is
also included in the $550,000 awarded against Peggy
Cianchette individually on count X.
The total
judgment amount awarded against Peggy Cianchette
reflects that $23,000 is part of her joint and several

The court understands that defendants do not agree that
Tucker's claim for fraudulent misrepresentation states a
cognizable claim or that he is entitled to expectation damages
on that claim and have argued that election of remedies was
required prior to trial or at least prior to verdict. The court has
ruled against defendants on those issues.
2

27a
liability on Count IX and that $527,000 represents
her remaining individual liability.
Counts III, VI, and VIII of the complaint have
been previously dismissed, along with counts I
through III and V of defendants’ counterclaim.
The entry shall be:
1. On Count I and Count VII of the complaint,
judgment is entered in favor of plaintiff Tucker
Cianchette and against defendants Eric and Peggy
Cianchette jointly and severally in the amount of
$3.1 million.
2. On Count II of the complaint, judgment is
entered in favor of defendants Eric Cianchette and
Peggy Cianchette and against plaintiff Tucker
Cianchette.
3. On Count IV of the complaint, judgment is
entered in favor of plaintiff CBF Associates LLC and
against Cianchette Family LLC in the amount of
$750,000.
4. On Count V of the complaint, judgment is
entered in favor of defendant Cianchette Family LLC
and against plaintiff CBF Associates LLC.
6.[sic] On Count IX of the complaint, judgment is
entered in favor of plaintiff Tucker Cianchette and
against defendants Eric and Peggy Cianchette jointly
and severally in the amount of $23,000.
7. On Count X of the complaint, judgment is
entered in favor of plaintiff Tucker Cianchette and
against Peggy Cianchette in the amount of $550,000.
This amount shall be reduced by any payment
recovered by Tucker on count IX so that the total
amount awarded against Peggy Cianchette on counts

28a
IX and X shall be no more than $550,000, of which
$23,000 is joint and several.
8. Judgment is entered in favor of Tucker
Cianchette and against Eric Cianchette for punitive
damages in the amount of $1.5 million.
9. Accordingly, the total judgment amounts to be
entered are the following:
(a) in favor of Tucker Cianchette and against Eric
and Peggy Cianchette jointly and severally $3,123,000.
(b) in favor of CBF Associates LLC and against
Cianchette Family LLC - $750,000
(c) in favor of Tucker Cianchette and against
Peggy Cianchette - $527,000
(d) in favor of Tucker Cianchette and against Eric
Cianchette - $1,500,000.
10.
This order shall not constitute a final
judgment because judgment has not entered on
defendants’
equitable
counterclaim
for
disassociation.
11. Pre-judgment interest shall run from the date
the complaint was filed to the entry of final judgment
at 3.65%. Post-judgment interest shall run from the
entry of final judgment at 7.76%.
The Clerk is directed to incorporate this order in
the docket by reference pursuant to Rule 79(a).
Dated: March 5, 2018
/s/_____________________
Thomas D. Warren
Justice, Superior Court

29a
Appendix D
STATE OF MAINE
SUPREME JUDICIAL COURT
SITTING AS THE LAW COURT
LAW COURT DOCKET
NO. CUM-18-252
TUCKER J. CIANCHETTE and CBF
ASSOCIATES LLC,
Plaintiff-Appellees
v.
ERIC L. CIANCHETTE, PEGGY A.
CIANCHETTE, PET, LLC and CIANCHETTE
FAMILY LLC,
Defendants-Appellants
On Appeal from Cumberland County Superior
Court
Docket No.: PORSC-CV-2016-249
APPELLANTS’ MOTION FOR
RECONSIDERATION

Lee H. Bals, Bar No. 3412
Jennie L. Clegg, Bar No. 3885
Katherine M. Krakowka, Bar No. 5302
Marcus Clegg
16 Middle Street – Unit 501
Portland, ME 04101
(207) 828-8000
Attorneys for Defendants-Appellants
Eric L. Cianchette, Peggy A. Cianchette, PET, LLC
and Cianchette Family LLC

30a
Pursuant to Me. R. App. P. 14(b), Appellants
Peggy Cianchette, Eric Cianchette, Cianchette
Family, LLC, and PET, LLC ("Appellants")
respectfully move the Court to reconsider in part1 its
decision dated June 4, 2019 ("Decision"), vacate the
judgment, and remand for further proceedings with
respect to the concurrent claims of breach of contract
and fraudulent misrepresentation.
INTRODUCTION
Reconsideration of the Decision is required for
two primary reasons: (1) Constitutional guarantees
of due process and fundamental fairness require
remand in order to provide a fair opportunity for
defense of the claims under the newly-adopted rule of
law; and, (2) the Decision overlooks the requirements
of the Restatement (Second) of Torts and stands in
direct contradiction to the judgment as entered.
To be clear, Appellants do not contest the
Court's adoption of a new rule of law in Maine and
overruling of its precedent. Appellants do, however,
take issue, in the strongest possible terms, with the
Court’s decision not to remand this case in light of
the Decision and the implications of the Decision on
the evidence that would have been presented had the
decision of the Court been known and proper
instructions given to the jury. The Decision, absent
remand, undermines the core fairness which must

Appellants do not request reconsideration of the contract
and fiduciary duty claims related to the management of the
LLC and subsequent $550,000 total award. The LLC claims
were a matter of first impression for the Court.
The
transactional claims, however, were defended under the former
controlling law.
1

31a
ground the due process promised by the judicial
system and granted by the Constitution.
This Court has recognized that when a new rule
of law is established remand is the appropriate
course of action. See Guardianship of Sebastian
Chamberlain et al., 2015 ME 76, 118 A. 3d 339 (Me.
2015).
The Sebastian Court announced a new
standard of proof in certain actions. Id. at ⁋ 2.
Because that newly-announced standard was not the
standard applied by the trial court, this Court
remanded, noting "[a]lthough the facts as stated in
the court’s judgment may appear compelling, we
cannot determine whether the court would have
made the same factual findings if it had applied" the
newly-adopted standard. Id. at ⁋ 35, fn.8. The same
holds true in this case. In the Decision, this Court
announces a new standard (the “limiting principle”
mandated by the Court) that was not applied by the
trial court. Regardless of the evidence contained in
the record, appellate courts are not finders of fact.
The new standard enunciated in the Decision
requires new findings on both the contract and tort
claims by the fact finder.
The injustice in this case is not simply that the
Court overruled established precedent, thereby
establishing a new rule of law. Rather, in doing so,
the Decision has fundamentally altered the
landscape of this case in a way that Appellants could
not possibly have predicted. The Appellants were
deprived of the opportunity to try their case knowing
what rules of law the Court would later adopt.
Specifically, in the Decision the Court notes that,
“The statement of the rule itself also highlights its
limiting principle – the intent to not perform must be
present at the time the parties are entering into the

32a
contract.” Decision at ⁋ 26 (emphasis added). Had
this standard been known prior to trial, Appellants
would have presented a very different defense both
as to the contract and the fraud claims.
Furthermore, not limiting the evidence of fraud to
the time of contract execution almost certainly
colored the jury’s assessment of whether Appellants
had breached the contract (as opposed to properly
exercising termination rights). Had the trial court
been aware of the “limiting principle,” it is clear that
some of the evidence that was permitted would have
been excluded, removing some of the emotion and
negative energy from the trial.2 In addition, had the
“limiting principle” been part of the instructions to
the jury, the jury could have focused attention on the
legally-required timing elements – the moment of
contract formation and the time for contract
performance – rather than generally diffuse
accusations. There is simply no way to know whether
the jury believed that Appellants either (i) entered
into the contract never intending to close or (ii)
entered into the contract intending to close but,
ultimately, decided otherwise. Or, given the highlyemotional evidence submitted by the Plaintiff (now
irrelevant under the Court's newly-adopted temporal

For example, testimony submitted by Tucker about a
phone call made by Eric occurring ten months after the contract
was signed, and highly prejudicial to Eric, would not have been
relevant to the question of Appellants’ intent when the
contracts were signed. Under the newly-adopted temporal
requirement, Appellants would have objected under Rule 403,
and either the jury would have never heard the evidence or this
Court would have reviewed the trial judge's decision pursuant
to an objection.
2

33a
requirement), whether the jury was hopelessly
confused and prejudicially tainted about the entirety
of the claims.
The reason failure to remand is fundamentally
unfair is revealed by the Decision itself.
As
recognized by the Court, the general rule of Shine
had been characterized as "well-settled" and, until
June 4, 2019, had never been overruled. Decision at
¶23. In point of fact, Shine has been cited with
approval by many courts in recent years.3 With the
Decision, the Court failed to address the interplay
between the new rule regarding fraud in contract
formation and the elements of a traditional
“fraudulent misrepresentation” claim that are
familiar to courts and litigants.
Further, the
Decision appears to overrule other well-settled areas
of Maine law sub silentio. The Court should remand
to the Superior Court in order to apply the newlyadopted rule and ensure a fair opportunity for
defense of the claims under the new controlling law
in harmony with this Court's other jurisprudence.
ARGUMENT
A. Fundamental Fairness Requires Remand
Basic principles of fundamental fairness
support remand. As both the Law Court and the
United States Supreme Court have stated, the very
foundation of our nation requires the judicial process
In 2017, mere months prior to trial in the instant case,
this Court noted “that a promise to take a future action will not
support an action for fraud.” Johnson v. Crane, 2017 ME 113,
¶6, 163 A. 3d 832, 834 (Me. 2017) (citing Shine). The Johnson
opinion did not reach the merits of the appeal, but did not offer
the remotest suggestion that this Court believed Shine
anything but good law.
3

34a
– the procedural due process afforded to all availing
themselves of the legal system – to be
“fundamentally fair.” In Re A.M., 2012 ME 118, ¶14,
55 A. 3d 463, 468 (Me. 2012); see also Mathews v.
Eldridge, 424 U.S. 319, 334-35 (1976). The Decision
acknowledged that at the time of trial the operative
precedent governing the claims was Shine. On
appeal, this Court decided to announce a new
holding, clearly overruling Shine. Whatever the
policy implications of the Court's decision,
Appellants recognize that such is the natural
development of the common law.
By affirming the judgment of the trial court,
however, and failing to remand for further
consideration in light of the Decision, the Court has
undermined the fairness which must be inherent in
the legal system. The defense was presented at trial
in accordance with Shine, which Appellants
(correctly) believed to be the controlling precedent at
the time. No defense was made in respect of the
limiting principle articulated in the Decision because
no court had ever announced (or suggested) that to
be Maine law.4 With the Decision's pronouncement
of a new rule, procedural due process must permit
presentation of a full defense responsive to the
newly-adopted law and the jury must be given the
appropriate instructions. The right to a full, fair
hearing “embraces not only the right to present

As discussed at the argument in the case, the Law Court
had never before cited to § 530 of the Restatement (Second) of
Torts. The Decision is its first appearance in authoritative
Maine law.
4

35a
evidence, but also a reasonable opportunity to know
the claims of the opposing party and to meet them.”
Morgan v. United States, 304 U.S. 1, 18
(1938)(emphasis added). At trial, Appellants had no
way to know this Court would, on appeal, adopt a
new rule of law, nor what the boundaries of that new
rule would be. The claims of the opposing party
could not be met in the dark.
The fundamental unfairness of failing to
remand is highlighted by recognition that if the law
prior to the trial were as announced in the Decision,
Appellants would have presented a very different
case.
This would have focused on presenting
evidence and argument responsive to the “limiting
factor” announced by this Court. This defense would
have been supported through appropriate jury
instructions, informed by the law as it now stands.
And, importantly, Appellants would have had legal
grounds from which to object in good faith to certain
evidence.
The Maine Rules of Evidence serve a
fundamental role in ensuring that litigation occurs in
an orderly, predictable, and (most importantly) fair
manner, with opportunity for both trial courts to
make informed rulings and the Law Court to review
those decisions. This is critical to ensure trials are
resolved on the facts and law, rather than prejudice
and emotion.
Had the “limiting principle”
enunciated in the Decision been known5 during the

Attorneys are ethically bound to expedite litigation. M. R.
Prof. Conduct 3.2. This necessarily requires choices on where
to best focus efforts in terms of legal argument and submission
of evidence. With different law comes different assessments on
5

36a
trial, it would have served an important gatekeeping
function regarding the evidence submitted to the
jury. Without that “limiting principle,” the alleged
evidence of fraud was allowed untethered to any
moment in time and infected the entirety of the case.
Indeed, without a temporal restriction instruction,
the jury could well have concluded that a fraud
occurred post-contract formation, and concluded that
the later fraud was a breach of contract. For that
reason alone, the entire case needs to be remanded
for a new trial with a fraud instruction consistent
with the change in law enunciated by this court.
Further, the Decision makes clear that the
instructions given to the jury were inadequate in two
respects: (1) the jury should have been instructed as
to “limiting principle,” i.e., the temporal requirement
of the newly announced post-Shine law, and (2) the
jury should have been instructed that, as noted in
the Decision, “[w]here the intent not to perform
arises at some point after the contract is entered
into” that is not actionable as fraud. Id. at ⁋ 26. The
jury received neither of these critical instructions.6

how to advance claims and defenses. This is why procedural
due process should lead to remand.
While the Court implies in the Decision that the
instructions were sufficient because the jury was instructed
that Eric and Peggy had to have known that the representation
was false, such an instruction did not require the jury to
consider when the representation was made. There is no way
to know whether the jury felt there was a misrepresentation
the year prior to contract formation (which would not be
actionable as a tort), sometime after contract formation (which
would not be actionable as a tort) or upon the signing of the
6

37a
In footnote 7 of Decision, the Court suggests that
Appellants waived the right to insist on these
instructions and that there was no obvious error in
instructing the jury without these two elements.
Decision, ¶26, fn.7. Appellants respectfully suggest
that appropriate objections were made at trial and,
regardless, the error was obvious.
First, Appellants objected to the entirety of the
tort claim as in contravention of Shine. They could
not then further object to the “fraud” instruction
taken directly from §7-30 of the Maine Jury
Instruction Manual. The instruction, as given,
accurately reflected the elements of fraudulent
misrepresentation at the time (i.e, prior to the
Decision) because at the time Maine law did not
recognize a tort based on a promise to perform in the
future under Shine.7 (T. 2663-2664). Given the trial
court’s ruling that a fraudulent misrepresentation
claim was appropriate for consideration by the jury,
any objection (beyond the objection made to the fraud
claim itself) to the instructions would not have been
appropriate. Wood v. Bell, 902 A. 2d 843, 851 (Me.
2006).
Indeed, there is nothing to which the
Appellants could have cited in support of any request
to modify the instructions. There is no specific
instruction regarding misrepresentation of an intent
contract (which is now actionable as a tort under the new law
enunciated by the Decision).
The comments to §7-30 of the Maine Jury Instruction
Manual do not describe any scenario, nor cite any case law,
7

where a “temporal requirement” exists permitting “intent” to
serve as a fact for purposes of a “fraudulent misrepresentation”
claim.

38a
to perform a contract in Justice Alexander’s Maine
Jury Instruction Manual, there is no prior Maine
case law that articulates any such claim (quite to the
contrary), nor could Appellants cite to the Decision
since it had not yet been issued.8
Said another way, when this Court decided to
overrule Shine in its entirety, there were a number
of different paths available as a consequence. As
noted in the Briefs, jurisdictions vary greatly in the
palliative rules they
adopt
alongside
the
Restatement. The “temporality” adopted in the
Decision is one, the requirement of election another,
the “independent duty” rule a third, and so on.
There is simply no way the Appellants could have
anticipated which, if any, of these rules the Court
would adopt. Nor should Appellants have been
expected to do so. It is the height of judicial
inefficiency to require parties to propose jury
instructions by listing every conceivable iteration of
law on the remote chance that this Court would
overrule precedent upon appeal, particularly when
the controlling case law indicates the claim is
invalid. Further, in light of the holdings of this
Court that jury instructions must state the law
correctly (see, for example, Darlings Auto Mall v. GM
LLC, 135 A. 3d 819, 823 (Me. 2016)), it would be
questionable practice, at best, for Appellants to have
As discussed supra, prior to the Decision, the Law Court
had never – even in passing – cited to § 530 of the Restatement
(Second) of Torts. Appellants cannot be reasonably expected to
advocate at trial for inclusion of a rule they believed neither
supported by Maine law nor, as a matter of policy, desirable for
this Court to adopt.
8

39a
submitted instructions without any support. Like all
pleadings, objections to instructions must be made in
good faith. M. R. Civ. P. 11. Appellants respectfully
suggest that there was no waiver and that the error
was obvious.
Second, contrary to this Court’s observation in
footnote 7, the failure to include the temporal
requirement in the instructions is, unquestionably,
obvious error.
The Court relied on Morey v.
Stratton, 2000 ME 147, to support its observation in
footnote 7. In Morey, unlike here, it was the
appellants who argued that the law should be
changed and a new instruction given on remand.
The Court in Morey declined to change Maine law
and as such, the prior jury instructions were not
obviously in error. Here, however, the Court has
changed the law governing the claims at issue;
Appellants had advocated for continued adherence to
Shine's “well-settled” rule.
Consider this: if the instructions given had not
mentioned reliance as a necessary element of fraud,
that would be obvious error; reliance is a
fundamental
element
of
a
fraudulent
misrepresentation claim. Under the Decision, it is a
fundamental element of the claim that, in order to
constitute a fact, the “intent to not perform must be
present at the time the parties are entering into the
contract” while an intent not to perform formed
before or after contract formation is not sufficient. It
is, therefore, axiomatic that the failure to mention
the temporal requirement is obvious error. This case
is the paradigm for the “exceptional circumstances”
which require a remand. Mason v. Torrey, 1998 ME
159, ⁋ 5, 714 A. 2d 790, 791-792 (Me. 1998) (obvious
error standard employed in civil cases to vacate a

40a
judgment when the error is “of the exceptional kind
that seriously affected” the fairness and integrity of
the trial), Twin Island Dev. Corp. v. Winchester, 512
A. 2d 319, 324 (Me. 1986)(judgment should be
disturbed if the instructions given failed to inform
the jury “correctly and fairly” and the error was
“exceptional” in a civil case in that it “seriously
affected the fairness, integrity, or public reputation”
of the case.), Michaud v. Wood, 1998 ME 156, ⁋ 4
(remand is appropriate when “the instructions failed
to sufficiently inform the jury correctly and fairly in
all necessary respects of governing law and the error
is so exceptional that it seriously affected the
fairness or integrity of the trial.”)
There was no way for Appellants to predict that
this Court would both overrule Shine and establish
the temporal requirement. At no time was the jury
told they were required to find this critical timing
element of the “fraud” claim or that if they concluded
the intent not to perform was formulated post
execution of the contract that no fraud claim could
lie. Further, the Court cannot assume that the jury
would have found the required temporal connection.
As the United States Supreme Court has noted, "it is
also familiar appellate procedure that where the
correctness of the lower court's decision depends
upon a determination of fact which only a jury could
make but which has not been made, the appellate
court cannot take the place of the jury." Securities
and Exchange Commission v. Cherney Corp., 318
U.S. 80, 88 (1943)(emphasis added).
In point of fact, if Appellants had been aware of
the temporal requirement dictated by the Decision,
the evidence in the record would be different. For
example, if Appellants had known that the lynchpin

41a
to defeating the fraudulent misrepresentation claim
was focusing on the time the contract was executed,
Appellants, in their direct and cross examination,
and in closing argument, would have focused the
jury’s attention on the distinction between an intent
not to close, and justifiable skepticism about whether
contractual contingencies could be satisfied.
Likewise, Appellants would have highlighted their
repeated decisions not to terminate the contract —
instead extending their contingency rights – as
evidence of their intent. Appellants would have
pressed the Plaintiff, who had the burden to
establish the misrepresentation by clear and
convincing evidence, as to his explanation for the
Appellants’ repeated extensions if they had been
misrepresenting their intent from the outset.
In short, given the change in the well settled law
of Maine, and the adoption of a rule not addressed by
the standard instruction provided by Justice
Alexander's treatise, a remand is required. Indeed,
failure to remand would not only be grossly unfair to
Appellants, but it would undermine confidence in the
judicial branch for both attorneys and the public,
both of whom rely upon a clear, consistent court
system. It cannot be the rule that parties must
conceive, prepare for and present evidence at trials
based upon the law as it then exists and,
simultaneously, prepare and present a different case
in anticipation of how this Court might overrule well
settled precedent should an appeal ultimately be
taken. It would create an impossible situation for
trial practice and leave parties with the impression
that the law is not, “reason free from passion,” but
rather a gamble, the outcome of which cannot be

42a
reasonably foreseen, with rules that change without
opportunity for response.
The importance of a remand when the Court
overturns its precedent cannot be overstated. (See
Sebastian 2015 ME 76, 118 A. 3d 339 (Me. 2015))
“Fundamental fairness” is more than an aspirational
ideal. It is a requirement of our system, safeguarded
by the Constitution, and must be zealously enforced
by the Court. Mathews v. Eldridge, 424 U.S. 319, 333
(U.S. 1976). To deny the Appellants the opportunity
to present their defense based on the law as
enunciated in the Decision would be manifestly
unfair and a deprivation of basic Constitutional
rights.
B. The Decision Does Not Fully Explain The
Adoption of the Restatement And Stands In Direct
Contradiction to the Judgment as Entered
1. The Decision Does Not Explain Whether
Fraudulent
Misrepresentation
Claims
are
Alternative or Additive to a Contract Claim
In the Decision, the Court states that it is
overruling Shine and adopting §§ 525 and 530 of the
Restatement (Second) of Torts. What the Decision
overlooks, however, is that § 530 of the Restatement
does not support the proposition that every
misrepresentation
of
contractual
intent
is
enforceable in tort.
Specifically, the comments to the Restatement
(First) of Torts made it clear that pursuing a tort
claim based on an allegation of a misrepresentation
of an intent to perform under a contract was an
alternative to a contract action (“If the agreement is
enforceable,
the
person
misled
by
the
misrepresentation has a right of action under this
Section as an alternative to his right of action upon

43a
the contract.”) (emphasis added). Restatement (First)
of Torts, §530, comment (b). With the adoption of the
Restatement (Second) this concept was further
refined and comment (c) to the Restatement (Second)
provides, in pertinent part, as follows
This is true whether or not the promise is
enforceable as a contract. If it is enforceable,
the person misled by the representation has a
cause of action in tort as an alternative at
least, and perhaps in some instances in
addition to his cause of action on the contract.

Restatement (Second) of Torts §530, comment (c)
(emphasis added).
In the instant case, the Decision is not clear
whether the “fraudulent misrepresentation” claim is
an alternative to the contract claim, or additional to
the contract claim. Further, if the tort claim is
additional to the contract claim, the Decision is not
clear why this is so. Is it always the case that,
unlike the Restatement, this new cause of action is
added onto a contract claim? Or must there be
particular circumstances to warrant simultaneous
claims?
The Decision suggests the Court believes the
tort claim is an alternative to the contract claim,
noting that the Plaintiff, “could not recover for both
fraudulent misrepresentation and breach of the
membership agreement.” Decision at ¶18, fn.5. If
footnote 5 of the Decision is intended to be in accord
with the Restatement, meaning the contract claim
and tort claim are alternative theories, then a
remand is necessary to explicitly address the causes
of action in the alternative.

44a
In sum, if the Court wishes to announce a rule
on when concurrent contract and tort claims may,
perhaps,
be
advanced,
reconsideration
and
clarification of the Decision is necessary. If the
Court believes these claims are alternative theories,
then due process requires they be addressed as such
at the trial level.9 But in either case, remand is the
appropriate course of action to apply the newlyannounced law – whatever it is – to these concurrent
claims.
2. The Question of Reliance Upon the
Temporally-Constrained Intentions Has Not Been
Addressed by a Jury
As discussed passim, the Court’s announcement
of a new rule of law subsequent to trial prevented
Appellants from presenting the fact finder with a
case based on allegations about the intent of
Appellants at the time the contract was signed.
Regardless, however, of whether the tort claim is an
alternative or additive to the contract claim, there
has been no direct consideration of remaining legal
elements of the “fraudulent misrepresentation” claim
in light of the Decision.

If these are alternative causes of actions under the Court’s
view of the Restatement, the Appellants would have had
opportunity to request the trial court bifurcate the trial. See
Bresler v. Wilmington Trust Co., 761 Fed. Appx. 160 (4th Cir.
2019)(discussing prudence of bifurcation when concurrent
contract and tort claims, predicated on the same acts, are
alleged). In such a scenario, the contract claim could have been
considered independently of the tort evidence, removing the
negative energy from the emotional event which occurred in the
instant trial and letting a jury consider a straightforward
contract theory.
9

45a
As the Court noted, there are five legal elements
necessary to support such a claim under Maine law.
Decision at ¶20. The essence of Shine dealt with a
question logically arising under the first two
elements: “what is a fact?” The prior rule held that,
even if proven, it was “well-settled” that a
“preconceived intention not to perform” a contract
“could not support an action of deceit.” The Decision
announced a new rule: “intentions” at the very
instant of contract formation can be facts.
In the instant case, however, there has been no
examination of the critical linkage between those
intentions – now facts under the newly-adopted rule
– and the resulting harm suffered by the Plaintiff.
Under Maine law “pecuniary loss is an essential
element of a fraud action.” Jourdain v. Dineen, 527
A.2d 1304, 1307 (Me. 1987). If the Plaintiff is made
whole by the contract (or an action thereon), then
there is no “pecuniary loss” resulting from reliance
upon contractual intentions.10 To hold otherwise
would mean a valid tort claim exists even if the
transaction had closed.
This demonstrates why a remand is necessary.
Appellants must be permitted to present evidence
and argument on all the elements of a fraudulent
misrepresentation claim in light of the Court's
adoption of a temporal requirement and overruling of
Shine. The jury must be instructed on the difference
between a breach of a contract and an intent – at the
The requirement of “pecuniary loss” as an “essential
element” of the fraud claim underlies the Decision's suggestion
that these claims are alternative theories, as the plaintiff “could
not recover for both fraudulent misrepresentation and breach of
the membership agreement.” Decision at ¶18, fn.5.
10

46a
moment of formation – not to perform the contract.
And the trial court must, in the first instance, ensure
that those claims are pursued fairly, with
opportunity for review by this Court on questions
squarely set before it.
3. The Decision Does Not Explain or Address the
Legal Basis for Punitive Damages
Finally, the Decision is not clear regarding the
treatment of punitive damages. As discussed supra,
the Decision holds that the plaintiffs, “could not
recover for both fraudulent misrepresentation and
breach of the membership agreement.” Decision at
¶18, fn.5. The judgment entered by the trial court
and affirmed by the Decision provided, in pertinent
part, for (i) $3,100,000 in breach of contract
damages, (ii) $0 in fraudulent misrepresentation
damages (following remitter), and (iii) $1,500,000 in
punitive damages.
The Decision offers no guidance on the nature
of the punitive damage award. If the punitive
damages are a recovery based upon the claim of
fraudulent misrepresentation, the judgement as
entered is in direct conflict with the Decision's
statement that the plaintiff “could not recover”
simultaneously in both tort and contract. Id. If the
punitive damages are awarded based upon the claim
of breach of contract, then the Decision does not
explain how such a result is in accord with this
Court's seminal holding that, "[n]o matter how
egregious the breach, punitive damages are
unavailable under Maine law for breach of contract.”
Drinkwater v. Patten Realty Corp., 563 A.2d 772,
776 (Me. 1989).
If this Court wishes to overrule Drinkwater and
provide for punitive damages resulting from a breach

47a
of contract, it should reconsider the Decision and
make that holding explicit for the sake of clarity in
Maine law. If, however, the Court does not wish to
take this drastic step, it should vacate the judgment
and remand for further proceedings, thus removing
the inconsistency between the Decision and the
judgment noted supra. Questions arising from the
interplay of fraud, contract, and punitive damages
can then be addressed in a straightforward manner
at the trial level with full consideration of the newlyadopted law, with procedural due process provided.
CONCLUSION
Appellants directly contested the claims of the
plaintiffs related to the management of the LLC at
trial. The Superior Court made legal rulings, and
those rulings were upheld on appeal. It was a fair
process, with reasonable opportunity to know the
claims. The alleged errors were squarely put before
this Court, resulting in clear legal holdings that did
not overturn precedent. That dispute is now over.
With respect to the remaining claims, however,
this Court overturned its controlling precedent and
fundamentally changed the law in Maine. Given the
change in Maine law heralded by the Decision,
fundamental fairness requires further proceedings.
“Although the facts as stated in the court’s judgment
may appear compelling, we cannot determine
whether the court would have made the same factual
findings if it had applied” the newly-adopted legal
standard. Sebastian, 2015 ME 76 at ¶35, fn.8;
accord Maine Eye Care Associates v. Gorman, 2006
ME 15, 890 A.2d 707 (remanding because trial court
applied incorrect legal standard).
If the Court
reconsiders its holding, vacates the judgment and
remands for further proceedings, then consideration

48a
can be given to the appropriate interplay between
the Decision and this Court's holdings in Drinkwater
and Jourdain, among others. A jury, under proper
instructions, can find the relevant facts, subject to
the responsible application of the Maine Rules of
Evidence. The law may then develop organically, in
incremental steps, informed by fully-developed
arguments, rulings of trial courts, and all subject to
the appropriate review and guidance of the Law
Court.
Fairness “embraces not only the right to present
evidence, but also a reasonable opportunity to know
the claims of the opposing party and to meet them.”
Morgan, 304 U.S. at 18. This requires that the
applicable rules of law be known before a party can
be required to present evidence in defense. Such is
the essence of due process.
Remand would
emphasize the “prudence” of jurisprudence, and
ensure the fundamental fairness of the judicial
system remains intact. The Court should therefore
grant this Motion.
Dated: June 17, 2019
_/s/__________________________
Lee H. Bals, Bar No. 3412
Jennie L. Clegg, Bar No. 3885
Katherine M. Krakowka, Bar No. 5302

Attorney for Appellants Eric L. Cianchette, Peggy A.
Cianchette, PET, LLC and Cianchette Family, LLC
MARCUS | CLEGG
16 Middle Street, Suite 501
Portland, ME 04101
(207) 828-8000
lbals@marcusclegg.com

